Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




CARRIERS STILL NEED TO PURGE
 UNUSED PROVIDER NUMBERS
—
            CARRIERS STILL NEED TO PURGE UNUSED PROVIDER NUMBERS

    In a May 1991 report the Office of Inspector General (OIG) found that most carriers did

    not systematically update provider files. 1 The OIG found that carriers could reduce

    Medicare’s vulnerability to abuse and save administrative costs by periodically deactivating

    provider numbers with no billing history.


    At that time, the OIG recommended that the Health Care Financing Administration

    (HCFA) require carriers to deactivate all provider numbers without current billing history.

    In October 1994 HCFA instructed the carriers to deactivate a provider number if no claims

    were submitted over a 3-year period.2 Between October 1994 and February 1995 the

    carriers completed deactivation of provider numbers that met this criterion.


    During May and June 1995, in the course of gathering survey data for a study on

    encouraging physicians to use paperless claims, we obtained from the carriers listings of

    active physician provider numbers, with December 1994 claim volumes noted for each. As

    was the case in 1991, we find a substantial percentage of these physician provider numbers

    are unused, that is, they have no recent billing history.


    From a samp[e of active paper-biller physician provider numbers at eight carriers,
    we project that 65 percent were not used for billing Medicare in December 1994.

    In the table below we show the unused provider number percentages at the carriers in our
    sample, and the projection to all carriers. Projecting the sample results to a total of
    485,787 active paper-biller physician provider numbers at all 29 carriers, we estimate that
    315,762 such numbers were unused nationwide.

                              TABLE:    UNUSED PHYSICIAN       PROVIDER   NUMBERS

         CARRIER            PAPER           NUMBER IN           NUMBER        PERCENT    MARGIN OF
                           BILLERS           SAMPLE             UNUSED        UNUSED      ERROR
             A                690                140              44                31     * 7.70/0
             B               18,307              320              212               66    f 5.20/0
             c               6,187               200               98               49    k 6.90/0
             D               14,736              300              187               62    &5.5%
             E               2,233               255               97               38    + 6.00/0
             F               2,791               260              178               68    * 5.7%
             G               6,971               300              189               63    &5.5’%
             H               39,263              300              216               72    + 5.1%0


     All Carriers           485,787              —                —                 65    * 5.7%
     Source: OIG Survey of Medicare carriers, May 1995.




                                                          1

We have included a description of our two-stage sampling methodology in a note at the

end of this repoti. It is important to note here four points concerning the data in the table.


First, the data reflect claim activity for one arbitrarily chosen calendar month, December

 1994. We held discussions with carrier staffs, reviewed monthly and yearly claim volumes

reported to HCFA, and noted another reviewer’s conclusion that seasonal changes do not

lead to significant differences in Medicare Part B claim characteristics.3   From this

analysis we believe that 1 month fairly represents the incidence of unused active physician

billing numbers. Vacations, illness, varied billing schedules, or other factors can account

for some of the unused provider numbers in any one given, but are unlikely to account for

a substantial percentage of unused numbers.


Second, we relied on the carriers’ then-current (May or June 1995) provider number

listings. It would have been an onerous task for the carriers to reconstruct provider

number listings for December. Changes in provider populations are gradual. Initiation of

new practices and termination of established practices will change the carrier listings from

month to month. As these incremental changes are unlikely to lead to substantial overall

change in the course of several months, we believe the December claim history

substantially reflects billing number use among the May or June provider population.


Third, the data are limited to physician provider numbers. Physicians account for the vast

majority of all provider numbers, and the carriers have responsibility for issuing (or

deactivating) physician provider numbers. Non-physician supplier numbers, by contrast,

are often issued by a central registry (durable medical equipment) or the certification

process (independent laboratories). In this context we note that the OIG found 30 percent

of all provider numbers were unused, at the one carrier examined in detail in 1991.


Fourth, we selected the samples for the table from physician provider numbers that are not

authorized to use paperless claims (paper billers). Nationwide the 485,787 paper-biller

numbers accounted for 59 percent of all active physician provider numbers, but they

represented just 17 percent of physician claims in December 1994.


We have some indication that the incidence of unused provider numbers among paperless

billers may be substantial. if perhaps not so high as the 65 percent found for paper billers.

Among nine carriers that sent us data for both categories, paper and paperless billers, we

found that unweighed averages of 66 percent of paper, 29 percent of paperless, and 57

percent of all provider numbers were unused.


We sought carrier explanations for the high percentage of active but unused physician

provider numbers. The carriers stressed that this situation tends to develop because

physicians neglect to notify the carriers to deactivate solo billing numbers when they close

an individual office to join a group practice or managed care organization.





                                               2

Except in cases of sanctions, most carriers rely on physicians to report voluntarily on
changes in their billing situation, such as a move out of State. Often, the carriers report,
they learn of the move only by returned mail. There is no incentive for physicians to
report changes in billing arrangements, nor is there a disincentive to neglect reporting.

The extent to which carriers actively seek to purge unused numbers is unclear. According
to HCFA, between October 1994 and February 1995 the carriers completed the deactivation
of provider numbers for which no claims were submitted over a 3-year period. Our data
reflect the carrier files afler this deactivation was completed.

We do know that the carrier in our sample with the smallest percentage of active but
unused numbers (the Montana carrier) has long had in place a system to identifi and purge
unused provider numbers every 3 years. The 1991 OIG report referenced above cited the
Montana carrier for its effective practice in sending out information verification letters to
providers.

The large number of active but unused numbers poses signl~cant        issues regarding
integrity and efficiency.

  �
       MISUSING PROVIDERNUMBERS: Billing numbers can be misused by physicians,
       their office staffs, or billing agents who process and submit claims. With two of
       more billing numbers controlled by one physician it becomes easier for duplicate
       billings, unbundling, fragmentation, or global service period violations to occur, by
       accident or by design.

  �
       SKEWINGUT1LIZATIONREVIEWS: Utilization parameters can be rendered
       inaccurate, or even be manipulated, by holders of multiple numbers. Postpayment
       screens can be more costly, or even impracticable, to apply. Quality of service
       reviews, which need to look at claims in the context of all other services by the
       billing physician, can be affected.

  �
       EVADING SANCTIONS: A sanctioned physician can evade deactivation of the
       primary provider number. Unless all the carriers and the registries with which a
       sanctioned provider trades fully and accurately coordinate information, exclusion
       might not be effective.

  �
       KNOWiNG ACCURATE GROUP COMPOSITION: Group membership can be concealed
       or reported improperly. Carriers are required to keep current information on the
       composition of physician group practices in order to control abusive billing, to
       monitor program payments, and to assess reasonableness and necessity of services
       claimed.




                                              3

— —
      It becomes especially important to remove these risks as Medicare moves toward a unified
      national system for processing health care claims. Within the Medicare Transaction
      System (MTS), HCFA plans to maintain a national provider file that will make available to
      claims processing sites provider data with a unique numbering system. If carrier files
      continue to contain so many unused provider numbers, the transition to MTS could become
      unnecessarily complicated and could even be jeopardized.

      Just keeping a large number of active but unused numbers in provider files can impose
      needless administrative expenses on Medicare and the carriers. Professional relations
      outreach activities are duplicated, if only through printing and mailing costs. Calculations
      of pricing screens and charge histories need to address unused numbers, ofien futilely,
      because they can be used at any time without notice. Even routine maintenance of
      provider files incurs larger than needed staffing and information resource management
      costs.

      RECOMMENDATION.          The HCFA should require the carriers to deactivate annually
      all provider numbers without current billing history and to update provider records
      periodically.

      This recommendation follows from one made by OIG in 1991. With the approach of
      MTS, the recommendation appears to be even more pertinent now than at that time.
      Further, it relates very directly to HCFA’S priority interest in addressing fraud and abuse
      and to the goal set forth in its strategic plan to be a leader in health care information
      resources management.

      The carriers can proactively identify unused provider numbers whose holders intend not to
      use them again by contacting the physicians. One way to do this would be to send a
      mailer with a tear-off return postcard for the physician to indicate intent to use the provider
      number, or not. Failure to respond could trigger a warning notice, and timely deactivation.
      Social Security has found that a mailer assists in screening disabled beneficiaries who are
      due to have mandated periodic reviews.4

      In the Medicare Carrier Manual, HCFA has established 3 years as an acceptable time limit
      for inactivity. Our finding that 65 percent of physician provider numbers were unused,
      after the first round of deactivation by the carriers, suggests that a lower limit would be
      more appropriate for timely closing of unused numbers. A 1-year limit would allow
      provider numbers with just one claim a year to remain active.

      HCFA Comments


      The HCFA agrees with our recommendation in the draft report that carriers deactivate
      unused provider numbers. but believes that 3 years of inactivity offers an appropriate
      threshold before carriers deactivate an unused number. The HCFA also agrees with our




                                                     4

suggestion that many inactive addresses occur when physicians neglect to notify carriers to
deactivate solo billing numbers. The full text of HCFA’S comments is in the Appendix.

OIG Response


While we appreciate HCFA’S agreement regarding the importance of deactivating unused

numbers, we must emphasize the need for carriers to act more quickly and more assertively

in this area. Thus we have revised our recommendation to explicitly reflect our belief that

a 1-year time period for deactivation should be established.


In 1991 HCFA accepted our previous recommendation to deactivate unused provider

numbers. Instructions were issued in October 1994 and deactivation completed by the

carriers in February 1995. Our data from May and June 1995 show that this deactivation,

with a 3-year threshold, lefl many unused provider numbers active in carrier files.

Therefore, we believe additional corrective action is necessary.


The HCFA believes that deactivating provider numbers more frequently than every 3 years

would be labor intensive and not cost effective. We are not aware of analyses

documenting just how labor intensive and cost effective a 1-year deactivation threshold

would be. It would appear efficient to mail a postcard to holders of the inactive numbers,

and deactivate the nonrespondents.  Carriers could be allowed discretion to retain

nonrespondents for whom they had independent information to show continuing activity.


METHODOLOGICAL       NOTE: We defined a physician provider number as a billing number assigned to a
physician (defined in Section 1861(r) of the Social Security Act) or to a group of physicians. Many
physicians in a billing group can share one provider number, but a group (or a solo physician) can have more
than one provider number if the carrier assigns them, for example, to identifi multiple practice locations.

We defined an active physician provider number as one that had not been deactivated by the carrier by reason
of death, moving out of State. sanction, or similar occurrence. An active number entered in item 33 of the
Health Insurance Claim Form. HCFA- 1500, can induce a carrier to process the claim and issue payment, if
all the other data entered on the claim form is consistent.

We defined an unused active physician provider number as one that was not used for a claim processed by
the carrier during December 1994. This was the most recent complete month at the time we began the study.
We asked the carriers to count processed claims rather than submitted claims so that we could also count
amounts allowed on a comparable basis, and we could use the carrier performance report (HCFA- 1565)
numbers as a reality check.

We selected 8 (out of 29) carriers at random in the first stage of a two-stage random sample of physician
providers. We then selected 100 active physician provider numbers at each carrier. When we found the first
100 selected included a substantial percentage of unused numbers (no claims during December 1994), we
inflated the selection to give approximately 100 used numbers. Thus the sample sizes in the Table.

For the margin of error in the table we used standard statistical formulas to compute confidence intervals that
apply to the sample design used to select this sample.




                                                       5

NOTES:

1.	   US Department of Health and Human Services, Office of Inspector General, Carrier A4ainfenance J#
      Medicare Provider Numbers, 0EI-06-89-O0870, May 1991.

2.	   US Department of Health and Human Services, Health Care Financing Administration, Medicare
      Carriers Manual, Part 4 Professional Relations, Section 1001.2.

3.	   United States General Accounting Office, Medicare Claims: Commercial Technology Could Save
      Billions Lost to Billing Abuse, Report AIMD-95-135, Washington DC, May 1995, Note 6.

4.	   Social Security Administration, 1994 Annual Report to the Congress, SSA Publication 03-005, July
      1994, page 11.




                                                 6

—
               APPENDIX




    COMMENTS   ON THE DRAFT REPORT




                 Appendix-1
            ,,
             .$4,,,
                      ,.
      ..-
                                                                                                             ‘eafth   Care   Ftnanclng   Admlnfstratro~
                              DEP.IRT<MENT OF HE.\LTH         & HU,}IAN SERVICES
:<
--,
4+
       ,,,,,0
        >                                                                                                   T!le Admlnlstrator
                                                                                                            Washington.      D.C.    20201




                           DATE          o~1619$xj
                                                                                    A


                       TO:	             June Gibbs Brown
                                        Inspector Generai

                       FROM:            Bruce C. Wade
                                        Administrator
                                                         %

                       SUBXECT	         Office of inspector   General Draft Report, “Camers   Still   Need to Purge Unused
                                        Provider   PJumbers,” (OEI-O 1-94-0023 1)



                      We reviewed the above-referenced        reporton the continuing need for Medicare carriers to purge
                      unused provider    numbers    horn their files. .Attached are our comments on the report
                      recommendation.


                      Thank you for the opportunity      to review and comment on this drafl report.

                      Attachment
—

                    Comments of the Health Care Financirw Administration (HCFA)
                                  on Office of Inmector General (OIG)
                 Draft Re~ort: “Carriers Still Need to Purge Unused Provider Numbers,”
                                              (OEI-01-94-00231]



    OIG Recommendation

    The HCFA should require the carriers to deactivate all provider numbers without current
    billing history and to update provider records periodically.

    HCFA Res~onse

    We agree that camiers should deactivate provider numbers without current billing history
    and update provider records. However, OIG suggested that HCFA’S 3-year threshold be
    reduced to 1 year, and at this time we believe that 3 years k an appropriate tirnefkne as
    most carriers must maintain 3 years of provider tie history to fulfill utilization review
    requirements. Deactivating and reenrolling in a 1-year time period would be labor
    intensive an~ based on current informatio~ not cost effective. In October 1994, HCFA
    instructed the carriers to deactivate a provider number if no claims were submitted over a
    3-year period. Be~een October 1994 and February 1995, the carriers completed
    deactivation of provider numbers that met this criterion.

    Since that time, HCFA has had ongoing initiatives to maintain an updated and cu.ment
    Provider Enrollment File. These initiatives should control entry into the system. As we
    review the impact of these changes we will also review the need to change the procedures -
    for deactivating     provider/supplier   numbers.

            o          HCFA is cuxrently reviewing carrier provider enrollment activity for the
                       past 3 years to identi~ growth patterns and irends as well as the physician
                       enrollment totals for 1994- 1995 to identi& and target potential areas for
                       fraud and abuse.

            o	         HCFA is implementing specific criteria for “Conditions of Enrollment”
                       which all new and cu.mentproviders/supphers must meet in order to obtain
                       validation or reenrollrnent into the Medicare program.

            o	         HCFA requests ownership information for durable medical equipment
                       suppliers and clinical laboratories to determine if providers are subsidiaries
                       or successors of persons or entities previously sanctioned from the
                       Medicare or Medicaid program.
—

     Page 2

              0	    HCFA also assigns unique identifiers (e.g., Unique Physician Identification
                    Numbers, National Supplier Clearinghouse numbers) to physicians,
                    nonphysician practitioners, medical group practices, and suppliers who
                    provide services for which Medicare payment is made. The unique
                    identifiers are assigned to each provider whether practicing solo, in a
                    partnership, or in a group, and remain constant throughout their Medicare
                    afll.iiation.

           o	        Like ownership informatio~ these unique idenfiers and information are
                    helpful in identifying sanctioned providers that either move to another state,
                    join a medical group practice, or are subsidities or successors of or
                     controlled by persons or entities previously debarred flom the Medicare or
                    Medicaid program. A listing of exciuded providers is provided to
                    contractors on an ongoing basis to ensure that sanctioned providers are not
                    enroiled in the Medicare program and that the provider file information is
                    current.

           o	       In August 1994, due to fraudulent supplier activity, HCFA devised more
                    stringent provider enrollment verification procedures which led to the
                    revocation of approximately 1,000 supplier numbers, the validation of over
                    114,000 current supplier numbers, and over 2,500 pending supplier
                    applications.

    We also agree   with   OIG that   many inactive addresses occur when physicians neglect to       ­

    noti~ carriers to deactivate solo biliing numbers. However, as HCFA prepares for the

    implementation of the Medicare Transaction System (MTS), ail existing data in the

    Provider Enrollment File will be validated. Inactive and inappropriate provider

    information wiii be eliminated from the Provider Enroihnent File. HCFA w-iiialso

    standardize provider enroiixnent forms, policies, and procedures in preparation for MTS

    with the forms scheduled to be implemented prior to “Day One” of MTS operation.

    These provider em-oilrnent data wiii furnish much of the information needed for

    processing claims after MTS is operational.


    Additionaiiy, the National Provider System (NPS), now being developed by HCFA, wili

    address the problems associated with multiple numbers such as dupiicate payments and

    manipulation of utilization parameters by ensuring that only one number is assigned to a

    provider. When a provider requests a new number through the NPS, a nationai data base

—
    Page 3

    will be searched to ensure that a number has not already been assigned to that provider.
    The NPS will not issue a new number when a physician changes or adds practice
    locations. Further, the NPS will track physicians’ participation in group practices. We
    expect the NPS to begin assigu.ing numbers to existing Medicare providers in April 1996.
